               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Atlanta Network Distribution
            Center — Postal Vehicle
               Service Operations

                       Audit Report




                                              July 24, 2012

Report Number NL-AR-12-007
                                                                             July 24, 2012

                                               Atlanta Network Distribution Center —
                                                   Postal Vehicle Service Operations

                                                          Report Number NL-AR-12-007




BACKGROUND:
U.S. Postal Service network                    placing, or ‘spotting’ them in the yard for
transportation using Postal Service            subsequent movement from the facility.
vehicles and employees is referred to as       In addition, managers did not adhere to
Postal Vehicle Service (PVS). This             the productivity standard of 40 trailer
report focuses on the Atlanta GA               moves per day in the yard for PVS
Network Distribution Center’s (NDC),           drivers. As a result, PVS drivers
PVS truck driver operations. Our               performed more truck moves and
objectives were to assess trailer loading      expended more driver workhours than
practices at selected NDCs and                 necessary. We estimate the
determine whether staffing of PVS truck        Postal Service could reduce 8,730 driver
driver operations was efficient, effective,    workhours and save about $347,000
and economical.                                annually.

PVS operations at NDCs include yard            WHAT THE OIG RECOMMENDED:
operations where PVS drivers use               We recommended the vice president,
specific trucks to move trailers and           Capital Metro Area Operations, ensure
equipment in or around a facility yard.        that Atlanta NDC managers follow
The operations require timely unloading        prescribed standard operating
of mail from trailers as they arrive at the    procedure for movement of trailers in
facility and the timely loading of mail into   the yard and periodically assess PVS
trailers for direct movement from the          spotter truck driver workload and
facility yard. The process avoids              staffing. We also recommended the
unnecessary movement and placement             reduction of 1,746 annual workhours
of trailers in the yard.                       associated with eliminating about 200
                                               moves in the yard per week. Finally, we
WHAT THE OIG FOUND:                            recommended the elimination of 6,984
Atlanta NDC staff were effectively             annual workhours associated with
unloading mail from trailers as they           improving PVS productivity to about
arrived at the facility yard, but PVS          40 trailer moves in the yard per day.
drivers were not efficiently moving
trailers in the facility yard. This occurred   Link to review the entire report
because management did not
consistently follow the NDC loading
policy for outbound trailers when
possible. Specifically, instead of having
trailers pulled directly from dock doors to
leave the facility, PVS drivers were
Date: July 24, 2012

MEMORANDUM FOR:             DAVID C. FIELDS
                            VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:              Audit Report – Atlanta Network Distribution Center – Postal Vehicle
                      Service Operations – (Report Number NL-AR-12-007)

This report presents the results of our audit of Atlanta Network Distribution Center
Postal Vehicle Service Operations (Project Number 12XG008NL000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody J. Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: David E. Williams, Jr.
    Cynthia F. Mallonee
    Pamela S. Grooman
    Corporate Audit and Response Management
Atlanta Network Distribution Center — Postal                                                                       NL-AR-12-007
 Vehicle Service Operations



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Live Loading/Unloading Practices ................................................................................... 2

Postal Vehicle Service Yard Move Productivity ............................................................... 2

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objectives, Scope, and Methodology .......................................................................... 6

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Detailed Analysis of Live Loading Practices ................................................ 8

Appendix C: Detailed Analysis of Tractor Trailer Operator Work Load............................ 9

Appendix D: Monetary and Other Impacts .................................................................... 10

Appendix E: Management’s Comments ........................................................................ 11
Atlanta Network Distribution Center — Postal                                                    NL-AR-12-007
 Vehicle Service Operations



Introduction

This report focuses on Atlanta Network Distribution Centers (NDC) Postal Vehicle
Service (PVS) truck driver operations and related trailer loading (and unloading)
practices. The objectives of our audit were to assess loading practices at selected
NDCs and determine whether staffing of PVS transportation operations was efficient,
effective, and economical. This self-initiated audit addresses operational risk. See
Appendix A for additional information about this audit.

U.S. Postal Service network transportation using Postal Service vehicles and
employees is referred to as PVS. Because PVS operations are local, they are managed
at the facility level under guidance from district, area, and headquarters transportation
officials. PVS activities at NDCs include yard operations, which is the movement of
trailers and equipment in or around a facility yard (spotting), typically to and from the
facility dock doors. This movement of trailers is performed by PVS drivers using spotter
trucks1 (see Figure 1) below.

                                Figure 1. Spotter Trucks at Atlanta NDC




                               Source: U.S. Postal Service Office of Inspector General (OIG),
                               May 6, 2012.

NDCs are tasked with ‘live unloading’ and ‘live loading’ of all arriving and departing mail
transportation trailers. Live unloading is when the highway contract route (HCR) or PVS
driver brings a trailer directly to a dock door for unloading when it enters the facility, and
live loading is when the HCR or PVS driver takes a loaded trailer directly from the dock
and out of the facility yard. In either case, the trailer is not placed in the yard (or spotted)
for movement at a later time. Not spotting trailers in the yard ensures mail flow to the



1
    Spotters are heavy duty trucks used to move trailers within an NDC yard operation.
                                                             1
Atlanta Network Distribution Center — Postal                                                               NL-AR-12-007
 Vehicle Service Operations

next operation or facility without delay and reduces total operating expenses at the
same time. 2

The Atlanta NDC has a staff of 13 PVS drivers responsible for an average of 1,851
moves per day servicing 122 dock doors.

Conclusion

Atlanta NDC officials could more effectively manage trailer loading practices, increase
staffing efficiency for PVS spotter truck operations, and reduce unnecessary driver
workhours. We found management did not consistently follow the ‘live loading’ policy for
outbound trailers when possible. Instead of moving trailers directly from the dock door
and out the facility, PVS drivers were placing or ‘spotting’ them in the yard for
subsequent movement from the facility.

In addition, for the remaining necessary trailer moves, managers did not adhere to the
productivity standards of 40 trailer moves in the yard per day for PVS drivers. As a
result, the PVS drivers performed more spotter truck moves and used more driver
workhours than necessary. We estimate the Postal Service could reduce driver
workhours by 8,730 and save about $347,000 annually.

Live Loading/Unloading Practices

The Atlanta NDC staff was effectively unloading inbound mail from trailers as they
arrived at the facility yard as required. On the other hand, trailers at the outbound docks
were not pulled directly from the dock door and out of the facility yard by the HCR
driver. Instead, the trailers were moved to the yard by PVS spotter truck drivers.
Because of this practice, the Atlanta NDC was conducting more spotter moves than
necessary. The Postal Service policy3 for dispatching vehicles at NDC facilities states
that all dispatches will be ‘live loaded.’ We concluded that if management consistently
followed the policy, they could eliminate about 200 moves per week in the yard, thereby
reducing 1,746 annual workhours and saving about $69,410 over 1 year. See Appendix
B for a detailed analysis of this topic.

Postal Vehicle Service Yard Move Productivity

Atlanta NDC management could make operations more efficient by holding PVS drivers
to a standard of 40 moves4 per workday for each driver. Specifically, in 2005, the
Postal Service’s Breakthrough Productivity Initiative5 established productivity standards
for NDC PVS operations, specifying that drivers (tractor-trailer operators) are expected



2
  Standard Operating Procedures Live Loading and Unloading of Trailers at Network Distribution Centers.
3
  Standard Operating Procedures Live Loading and Unloading of Trailers at Network Distribution Centers.
4
  A move consists of moving trailers and equipment from one location to another in the NDC yard.
5
  The Breakthrough Productivity Initiative was initiated to drive costs out of the Postal Service while creating
continuous improvement capability.



                                                            2
Atlanta Network Distribution Center — Postal                                                         NL-AR-12-007
 Vehicle Service Operations

to complete 40 trailer moves within an 8-workhour period. One driver can accomplish
200 trailer moves within a NDC yard during a 40-workhour week.6

We found that Atlanta NDC PVS drivers were averaging about 24 moves per workday.
Furthermore, we conducted observations and analyzed operational workload data7 and
confirmed that established productivity standards were reasonable and attainable for
PVS drivers at the facility. Productivity standards were not met, because NDC
managers did not fully assess workload and staffing requirements. If productivity was
set at the standard of 40 moves per day, the Capital Metro Area could phase out about
6,984 annual workhours and save about $277,642 over one fiscal year. See Appendix C
for our detailed analysis of this topic.

Recommendations

We recommended the vice president, Capital Metro Area Operations, require that
Atlanta Network Distribution Center management:

1. Follow prescribed Postal Service standard operating procedures for movement of
   trailers in the yard.

2. Periodically assess Postal Vehicle Service spotter truck driver workload and staffing
   requirements with respect to productivity standards to maintain appropriate staffing
   levels.

3. Eliminate 1,746 annual workhours associated with reducing about 200 spotter
   moves per week by implementing live load procedures.

4. Eliminate 6,984 annual workhours associated with improving Postal Vehicle Service
   truck driver productivity to the Breakthrough Productivity Initiative standard of 40
   moves per day, or 200 moves per week.




6
  Headquarters and senior area transportation managers have explained that this productivity standard was
reasonable and appropriate.
7
  Our analysis also included PVS driver workhours associated with the Surface Transfer Center (STC), which is also
housed at the NDC facility.



                                                         3
Atlanta Network Distribution Center — Postal                                 NL-AR-12-007
 Vehicle Service Operations

Management’s Comments

Management generally agreed with our findings and recommendations. They stated the
pre-load process is necessary and the Atlanta NDC does not have sufficient staging
space of mail to allow for all Atlanta NDC trips to be ‘live’ loaded. Management stated
they will increase ‘live’ loads to the maximum extent possible to capture additional PVS
driver workhour savings. They agreed to continue to review the ‘live’ load process and
identify opportunities to increase the percentage of ‘live’ loads. They indicated the
Atlanta NDC transportation manager will conduct annual efficiency reviews of the PVS
operations. Management also agreed to reduce PVS driver hours because of increased
productivity and has confirmed three positions have been eliminated from the Atlanta
NDC. See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report. The actions initiated by management resulted in the elimination of three
positions and addresses the issues identified in the report. We are encouraged by
management’s plan for continual analysis to attain efficiency and further reduce
workhours.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                               4
Atlanta Network Distribution Center — Postal                                                            NL-AR-12-007
 Vehicle Service Operations




                                 Appendix A: Additional Information

Background

PVS Operations: Postal Service surface network transportation that uses Postal
Service vehicles and employees is called PVS. Management typically assigns PVS
vehicles and personnel to Postal Service network facilities, such as NDCs or processing
and distribution centers in or near metropolitan areas. PVS operations typically include
yard operations where spotter trucks move or ‘spot’ trailers and equipment in or around
a facility yard, typically an NDC yard. PVS is capital- and personnel-intensive.
Nationwide, PVS capital assets include about 2,154 cargo vans, 1,814 tractors
(including spotter tractors), and 3,892 trailers. PVS involves about 7,700 employees,
including 6,597 drivers, 575 administrative support personnel, and 548 managers. The
American Postal Workers Union represents PVS drivers and support personnel.

The Atlanta NDC has a staff of 13 PVS drivers responsible for an average of 1,851
moves per day servicing 122 dock doors.

              Figure 2. Spotter Truck Moving Trailer in the Atlanta NDC Yard




                           Source: OIG, May 6, 2012.

Live Loading and Unloading Process: An essential component of the NDC network is
the live unloading of trailers as they arrive at the facility and the live loading of trailers
for direct movement from the facility yard.8 The process avoids unnecessary movement
and placement (spotting) of trailers in the yard and reduces overall transportation times
and handling costs. Outgoing mail received at Tier 1 NDCs from local processing
facilities is containerized separately and must be unloaded and transferred to the Tier 2


8
  Service Talk #2 Live Loading and Unloading of Trailers at Network Distribution Centers – service talk used to
communicate information on the conversion of bulk mail centers (BMCs) into NDCs to NDC employees. It explains
that an essential component of this new NDC network is the live loading and unloading of trailers as they arrive at the
facility and identifies specific roles and responsibilities.



                                                           5
Atlanta Network Distribution Center — Postal                                                               NL-AR-12-007
 Vehicle Service Operations

NDC in time to be processed and dispatched into the network. 9 This requires the live
unloading of originating trailers and the live loading of trailers for the Tier 2 NDCs.
Queuing and staging of trailers for unloading at a later time may result in delays and
service failures.

Objectives, Scope, and Methodology

The objectives of our audit were to assess loading practices at selected NDCs and
determine whether staffing of PVS transportation operations was efficient, effective, and
economical. During our work, we interviewed Postal Service officials at headquarters
and the Atlanta NDC. We reviewed relevant Postal Service policies and procedures,
interviewed managers and employees, and observed and photographed operations.

We extracted reports from the Yard Management System (YMS) 10 that detailed all
outbound dispatches at the Atlanta NDC for a 2-week period. We analyzed this data to
determine whether the facility had a further opportunity to live load its outbound
dispatches. We based this analysis on the Postal Service policy, Standard Operating
Procedures Live Loading and Unloading of Trailers at Network Distribution Centers. We
also obtained computer-generated data from the Vehicle Tracking Analysis and
Performance System (VTAPS) 11 for the Atlanta NDC that included a consecutive
17-week period from September 1 through December 31, 2011. This data represented
the PVS yard operational workload (moves) for the period for all operations at the
Atlanta NDC, including STC move data. We identified 31,467 yard moves. We
examined this workload with previously established Postal Service productivity
standards of 40 moves per day for NDC PVS spotter driver operations.

We assessed the reliability of YMS and VTAPS data. We validated data from the YMS
system as it pertains to spotter moves in the yard at the Atlanta NDC. We observed
spotters moving trailers within the yard and compared that to the YMS spotter move
report for the same period. We concluded the data were accurate and reliable. We also
verified the accuracy of the data through discussions with Postal Service officials
knowledgeable about the data and the system that produced the data. We determined
that the data were sufficiently reliable for the purposes of this report.

We conducted this performance audit from December 2011 through July 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for

9
  Tier 1 Sites distribute local and destination Standard Mail, Periodicals, and Package Services for the Tier 1 service
area. Tier 2 Sites include Tier 1 responsibilities and the distribution of outgoing Standard Mail, Periodicals, and
Package Services for assigned Tier 1 sites.
10
   YMS is an automated system that tracks vehicles through a facility yard.
11
   VTAPS manages vehicle operations by providing real-time actionable information, effective vehicle tracking and
control utilities, and flexible access to data required to evaluate and improve vehicle operations. Interface will provide
times schedule, drop ship, and times data for use in VTAPS.



                                                            6
      Atlanta Network Distribution Center — Postal                                        NL-AR-12-007
       Vehicle Service Operations

      our findings and conclusions based on our audit objectives. We discussed our
      observations and conclusions with management on May 31, 2012, and included their
      comments where appropriate.

      Prior Audit Coverage

                                                       Monetary
                                             Final      Impact
                          Report            Report        (In
   Report Title           Number             Date      millions)                Report Results
                                                                   Management should verify the removal of
                                                                   3,500 workhours and phase out an additional
Postal Vehicle                                                     8,750 workhours agreed to during our audit.
Service                                                            Management should also periodically assess
Transportation –        NL-AR-09-005       7/17/2009       $4.3    PVS workload and staffing requirements to
Philadelphia Bulk
Mail Center                                                        maintain appropriate staffing levels.
                                                                   Management agreed with our findings and
                                                                   recommendations.
                                                                   Management should verify the phasing out of
Postal Vehicle                                                     6,968 agreed-upon workhours. In addition,
Service                                                            NDC managers need to periodically assess
Transportation –        NL-AR-10-007        8/4/2010       $2.8    PVS workload and staffing requirements to
Washington Network                                                 maintain appropriate staffing levels.
Distribution Center                                                Management agreed with our findings and
                                                                   recommendations.




                                                       7
Atlanta Network Distribution Center — Postal                                   NL-AR-12-007
 Vehicle Service Operations




                Appendix B: Detailed Analysis of Live Loading Practices

After conducting our observations at the Atlanta NDC, we extracted a historical
outbound trip report from YMS that detailed all of the outbound dispatches being made
by the facility for a 2-week period to determine whether trips could be live loaded given
time constraints. Using this report, we compiled a list of trips and sorted by dock door to
see what time trips were departing from a specific door. If there was more than 1 hour
between trips leaving from the same door, we determined the trips were candidates for
live loading. We then considered other factors, including the percentage of load on each
trip and dock space for staging mail for subsequent trips. Based on our analysis of live
loading, we determined that about 94 percent of the outbound trips can be live loaded at
the facility as shown in Table 1.

                       Table 1. Atlanta NDC Outbound Trip Analysis

                                                                Trips That
                                                      Total    Could be Live
                                 Date                 Trips      Loaded
                   Thursday, March 8, 2012                37              34
                   Friday, March 9, 2012                  35              31
                   Saturday, March 10, 2012               32              30
                   Sunday, March 11, 2012                 20              19
                   Monday, March 12, 2012                 30              28
                   Tuesday, March 13, 2012                26              26
                   Wednesday, March 14, 2012              33              31
                   Thursday, March 15, 2012               32              29
                   Friday, March 16, 2012                 36              33
                   Saturday, March 17, 2012               33              31
                   Sunday, March 18, 2012                 21              21
                   Monday, March 19, 2012                 35              33
                   Tuesday, March 20, 2012                24              24
                   Wednesday, March 21, 2012              31              29
                    Total Potential Live Loads           425             399
                      Identified in 2 Weeks
                     Percentage of Trips with
                    Potential to be Live Loaded                         94%
                                   Source: OIG.




                                                  8
Atlanta Network Distribution Center — Postal                                                        NL-AR-12-007
 Vehicle Service Operations




         Appendix C: Detailed Analysis of Tractor Trailer Operator Work Load

The Atlanta NDC has 13 tractor trailer operator (TTO) drivers over three tours who are
responsible for moving trailers around the Atlanta NDC yard with spotter trucks. The
work includes movement of trailers for operations of the NDC as well as operations
associated with the surface transfer center also housed at the facility.

We reviewed all yard moves associated with both operations within a 4-month period
from September 1 to December 31, 2011. We examined 31,467 yard moves over 122
days. After analyzing the moves, we determined that each TTO driver moved an
average of 24 moves per day. The national standard for yard moves is 40 moves per
day (see Table 2).


                           Table 2. Average Moves per Driver per Day

                                                                                          Average
                                                                                         Move Per
                                                                                         Driver Per
 2011 Month          Total Moves         Days in Month               Drivers12              Day
 September              8,200                  30                       11                  24.8
 October                7,955                  31                       11                  23.3
 November               7,384                  30                       11                  22.4
 December               7,928                  31                       11                  23.2
 TOTAL                 31,467                 122                       11                  23.4
Source: OIG.




12
  We used 11 drivers in our review and not the 13 drivers at the NDC, because two were not driving because of
administrative reasons.



                                                        9
Atlanta Network Distribution Center — Postal                                                           NL-AR-12-007
 Vehicle Service Operations



                                     Appendix D: Monetary Impacts

We concluded that Atlanta NDC management could phase out 8,730 workhours by
following established productivity standards and performing live loads. This would save
the Postal Service $347,052 over 1 year, as reflected in Table 3.

                                     Table 3. PVS Potential Savings

                                                                                               1-Year
                                                                         20% (or             Total (10%
                                                                          2-Year                of 10
         Recommendation    Impact Category                               Savings)              Years)
         3. Live Load    Funds Put to Better
                                                                             $138,821             $69,410
                         Use
         4. Productivity Funds Put to Better
                                                                              555,284             277,642
                         Use
         Total                                                               $694,105           $347,052
               Source: OIG.

Total Excess Workhours and Associated Cost Reductions Findings: We employed a
10-year cash flow methodology, discounted to present value, by applying the following
factors published by Postal Service Headquarters Finance. We then took 20 percent of
the total to represent the savings for 2 years, as shown in Table 4.

                              Table 4. Highlights from 10-Year Cash Flow

                                 FY 201213             FY 2013             10-Year Total              20% (or
                                   Total               (Annual)            (FYs 2012 to                2-Year
 Cost Category                  (Phased In)              Total                 2021)                  Savings)
Personnel - Live                     $37,903              $77,171                $694,105               $138,821
Load
Personnel -                           151,612              308,682                2,776,419              555,284
Productivity
      Total                         $189,515             $385,853             $3,470,52414              $694,105
Source: OIG.

      Table 5. Discount Rate/Escalation Factor for Computing Monetary Impact

                                   Rates by Type15                                         Factor
                  Discount Rate/Cost of Borrowing                                            2.6%
                  Labor Escalation Rate                                                      1.8%
                 Source: OIG.


13
   The FY 2012 figure is conservative to allow for phase-in of workhour reductions during the year.
14
   Slight difference in total due to rounding.
15
   Rates published November 23, 2011.



                                                          10
Atlanta Network Distribution Center — Postal                           NL-AR-12-007
 Vehicle Service Operations



                                   Appendix E: Management’s Comments




                                               11
Atlanta Network Distribution Center — Postal        NL-AR-12-007
 Vehicle Service Operations




                                               12
